CERTIFICATE AND AFFIDAVIT OF SERVICE

I hereby certify that I have served upon attorney Robert B. French, Jr., at
308 Alabama Avenue, South, Fort Payne, AL 35967, on the date written below, via
U.S. Priority Mail properly stamped and addressed, three copies in booklet format
of the Petition for a Writ of Certiorari to be issued to the Supreme Court of Alabama
in the matter of Thomas C. Donald v. James P. Kimberley and Carol J. Kimberley.
I understand that Mr. French’s telephone number is 256-845-2550 and that
his email address is FrenchLaw308@yahoo.com.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this the 5th day of October, 2021.

Thomas C. Donald, pro se
Post Office Box 43507
Birmingham, Alabama 35243
205-720-0263, tcd@bellsouth.net

